NO. ______________
IN THE

Supreme Court of the United States
____________________
LUKE T. WEST, PETITIONER,
V.
UNITED STATES, RESPONDENT.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

PROOF OF SERVICE
Undersigned counsel certifies that on this date, the 15th day of September,
2021, pursuant to Supreme Court Rules 29.3 and 29.4, and pursuant to the April
15, 2020 and July 19, 2021 Orders of the Court; the accompanying Petition for a
Writ of Certiorari and Appendix to same were served on each party to the above
proceeding, or that party’s counsel, and on every other person required to be served,
by forwarding an electronic copy of these documents by electronic mail, after
receiving consent to accept service by electronic means, to the following.
Office of the Solicitor General of
the United States
The Hon. Brian H. Fletcher
Department of Justice, Room 5616
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
supremectbriefs@usdoj.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 15, 2021.
Respectfully submitted,

CLAIBORNE W. BROWN

